         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report

The Office of Civilian Radioactive
Waste Management's Corrective
Action Program




DOE/IG-0736                            August 2006
REPORT ON THE OFFICE OF CIVILIAN RADIOACTIVE WASTE
MANAGEMENT'S CORRECTIVE ACTION PROGRAM


TABLE OF
CONTENTS


           Corrective Action Program


           Details of Finding ........................................................................................1

           Recommendations and Comments ..............................................................9


           Appendices


           1. Objective, Scope, and Methodology....................................................11

           2. Prior Reports ........................................................................................13

           3. Management Comments ......................................................................15
CORRECTIVE ACTION PROGRAM

Background            Under the Department of Energy's (Department's)
                      Corrective Action Program (CAP), the Yucca Mountain
                      Project staff was instructed to report potential conditions
                      adverse to quality (hereafter referred to as conditions) or
                      safety into the Program database. Potential conditions
                      include all failures, deficiencies, defective items, safety
                      issues, and nonconformances with Quality Assurance
                      requirements, which could affect the quality of the
                      supporting technical information. As an alternative,
                      employees who wish their identity to remain confidential
                      can report potential conditions through the Employee
                      Concerns Program (ECP). However, all conditions
                      reported in the ECP and other tracking systems that are
                      adverse to quality, must also be entered into the CAP
                      database and assigned to a line management organization to
                      develop and implement timely corrective actions. The
                      benefit of a single tracking system is that deficiencies can
                      be screened for significance, common cause analyses can
                      be performed, and trending analyses can be used to identify
                      repeat occurrences and potential significant problems.

                      The CAP process also provides for the assignment of a
                      significance level to the condition, ranging from Level A to
                      Level D, depending on the actual or potential consequences
                      of the condition. Level "A" condition reports, the most
                      significant, include conditions, which if uncorrected could
                      have a serious effect on safety, or serious effects on the
                      performance of the repository, such as the ability to isolate
                      waste. Level "D" condition reports are the least significant.
                      Of the approximately 5,600 condition reports in the
                      Corrective Action Program system, 14 were Level A; 783
                      were Level B; and, approximately 4,800 were Level C
                      or D.

Management of the     The CAP is not meeting all its goals for identifying,
Corrective Action     tracking and resolving all conditions adverse to quality
Program               or safety that could effect the license application process.
                      Specifically, we found conditions that had been reported in
                      other tracking systems, in line management self-assessment
                      reports, and by external review groups that had not been
                      included in the CAP system, but should have been.
                      Further, corrective actions developed to respond to these
                      conditions were not always timely and/or effective in
                      resolving the problems identified.




________________________________________________________________
Page 1                                            Details of Finding
                                             Completeness

                      In keeping with OCRWM's commitment to establish a
                      single system to manage problems that could affect the
                      license application process, OCRWM and its management
                      and operating contractor, Bechtel SAIC Company, LLC
                      (Bechtel), required that any potential condition reported in
                      any of its 16 other tracking systems be recorded and
                      managed in the CAP database. This included potential
                      conditions reported by line management through self-
                      assessment reviews and external review groups. Despite
                      this requirement, we found at least 102 potential
                      deficiencies that had not been included in the CAP system.

                         •   We identified 90 potential conditions, reported
                             between October 2003 and November 2005, in
                             other tracking systems, such as the ECP and the
                             Work Order Request Systems, which were not in
                             the CAP database. For example, in 2004, an
                             employee reported through the ECP the presence of
                             radon gas during boring operations in the tunnel.
                             Although both a potential condition adverse to
                             quality and a potential employee safety and health
                             issue, the concern had not been included in the CAP
                             system. This condition was subsequently closed
                             under the ECP even though a final determination
                             regarding the validity of the concern had not been
                             made.

                             In responding to a draft of this report, officials
                             commented that this allegation only concerned the
                             tunnel boring operations in the 1990's. Since there
                             was no regulatory requirement at that time and
                             currently no scientific evidence associated with the
                             potential synergistic effects of exposure to radon
                             and silica, this concern was not identified as a
                             condition in CAP. An OCRWM official advised
                             that it is waiting for the results of international
                             scientific studies regarding the combined effects of
                             radon and silica to identify if there is a health risk
                             concern.

                             We acknowledge that the main tunnel boring
                             operations were completed in the 1990's. However,
                             since more than 50 emplacement tunnels off the
                             main tunnel have yet to be bored, we continue to

________________________________________________________________
Page 2                                            Details of Finding
                             believe that this allegation should be managed in
                             CAP until the determination has been made on its
                             health risk to workers.

                         •   About 25 percent (12 of 51) of self-assessment
                             reports we reviewed identified conditions that
                             should have been reported in the CAP database, but
                             were not. For example, an October 2005 self-
                             assessment report identified the need for improved
                             software capabilities to meet new Federal
                             requirements on radiation dosage analyses for
                             workers and the general public. Even though these
                             analyses directly affect the license application, the
                             condition was not entered into the CAP system to
                             initiate appropriate corrective action. Management
                             recently purchased new software needed to meet the
                             new requirement.

                      Also, externally identified issues, such as findings and
                      recommendations from Office of Inspector General and
                      Government Accountability Office reports were not being
                      managed within the CAP system. These reports addressed
                      inadequate quality assurance plans for incentive
                      expectations and lingering quality problems with data,
                      models, and software and continuing management
                      weaknesses.

                      Since none of these conditions had been entered into the
                      CAP, they were not subject to screening, cause analysis,
                      and trending to identify repeat occurrences and potential
                      significant problems. We noted that at least 50 of the 71
                      conditions reported in other tracking systems, but not
                      included in CAP, were determined to be valid; however,
                      only 23 of these were closed with corrective actions.

                                   Timeliness of Corrective Actions

                      OCRWM procedures require that condition reports be
                      assigned to line management to develop a plan and
                      schedule for corrective actions and that corrective actions
                      be implemented within the timeframe established in the
                      plan. However, OCRWM did not meet expectations for
                      Levels A and B conditions. Specifically, 6 of the 8 Level A
                      conditions closed between April 2001 and July 2004
                      required an additional 11 to 495 days beyond the original
                      completion date to implement planned corrective actions.

________________________________________________________________
Page 3                                            Details of Finding
                      For example, a Level A condition report, addressing a lack
                      of documentation for validating technical analysis and
                      model reports, required a total of 495 days beyond what
                      was originally scheduled to implement the corrective
                      actions.

                      Similarly, for the 96 Level B conditions closed during
                      2005, 57 were not completed on time. For example, one
                      Level B condition was originally scheduled to be
                      completed in October 2003, however, the corrective actions
                      were postponed several times beyond the originally
                      scheduled completion date, and are now scheduled to be
                      completed in February 2007 – a total of 1,200 days later
                      than originally planned.

                      As of November 2005, we found that the implementation of
                      corrective actions for one Level B and five Level C
                      condition reports were delayed over 1,000 days from the
                      date identified. These involved operability issues of site
                      safety systems such as emergency lighting, firewater
                      systems, and emergency communication systems in the
                      tunnel. We also noted that management frequently revised
                      scheduled completion dates and measured timeliness from
                      the revised dates.

                                  Effectiveness of Corrective Actions

                      Corrective actions were not always effective in resolving
                      conditions adverse to quality. An indicator that corrective
                      actions are not effectively addressing the conditions is
                      whether previously reported problems recur. During the
                      audit, we identified at least 16 conditions that continued to
                      be reported by employees, even though officials reported
                      that corrective actions had been taken to resolve these
                      conditions. We found that the planned corrective actions,
                      in most of these cases, had not been fully effective.
                      OCRWM management acknowledged the need for
                      improvement in this area and advised that it has begun to
                      take action to address recurring problems. Examples of
                      three of the recurring problems follow.

                         •   Problems related to the flow down of design and
                             control requirements to Bechtel's technical design
                             documents were reported over 150 times between
                             January 2004 and July 2005. Although this
                             condition continued to be reported during the

________________________________________________________________
Page 4                                            Details of Finding
                              period, OCRWM officials concluded that corrective
                              actions had been taken and closed the condition
                              reports. However, due to the significance of this
                              condition and its impact on technical documents, a
                              "work suspension" order was issued in December
                              2005. Currently, management is taking action to
                              address this concern.

                          •   Between February 2004 and May 2005, a problem
                              concerning the recurrence of editorial, technical,
                              and procedural non-compliance errors in technical
                              reports issued to the Nuclear Regulatory
                              Commission (NRC) was reported 31 times. These
                              reports described the geologic, hydrologic, physical,
                              and chemical processes of the repository. Although
                              the corrective action plans were reported to have
                              resolved these problems and nearly all had been
                              closed, the problems continued to recur and had not
                              been corrected at the time of this audit. We noted
                              that the NRC previously rejected OCRWM
                              documents due to the numerous editorial and
                              technical errors.

                          •   Another recurring problem pertained to the
                              verification of employees' education and experience
                              to ensure they were qualified to work on licensing
                              documents, such as the post closure engineering
                              documents. These documents contained analysis
                              and modeling of the geologic, hydrologic, physical,
                              and chemical processes of the repository. We noted
                              that this condition had been reported over 34 times,
                              although corrective actions were reported to have
                              been taken. Due to the significance of this problem,
                              management recently issued a condition report to
                              ensure that the necessary corrective actions were
                              addressed.

System to Implement    The CAP system was not used to track and manage all
An Effective Program   deficiencies primarily because management officials did
                       not always (1) support employee participation in the
                       corrective action process; (2) make needed improvements
                       to the system procedures and software to facilitate its use;
                       (3) conduct reviews to assess the effectiveness of the
                       scheduled corrective actions; and, (4) fully utilize its
                       trending analysis capabilities. We noted that the


________________________________________________________________
Page 5                                            Details of Finding
                      complexity of some planned actions and budgetary
                      constraints also impacted OCRWM's ability to correct
                      problems identified.

                        Employee Participation in the Corrective Action Program

                      OCRWM and Bechtel management encouraged employees
                      through newsletters and the intranet to self-identify and
                      report all conditions into the CAP database; however, some
                      employees were reluctant to participate in the process. This
                      finding was confirmed by a March 2006 OCRWM self-
                      assessment report which acknowledged that some
                      supervisors encouraged a "find and fix" approach to correct
                      problems rather than enter issues into CAP. Additionally,
                      the report acknowledged that these employees feared that
                      there could be negative consequences (personal, business,
                      and organizational repercussions) for identifying issues.

                      Although the data does not indicate a pervasive problem,
                      we found 51 instances of employees' reluctance to report
                      issues in the CAP due to fear of negative repercussions.
                      These concerns had, however, been filed through the ECP.
                      Additionally, two employees raised concerns to us during
                      the audit about reporting issues in the CAP system. One
                      employee stated that after he raised concerns or identified
                      deficiencies, his manager instructed him not to enter the
                      issues into the CAP system. The other employee stated that
                      he was instructed by a manager to only report specific
                      violations to approved requirements, even though
                      Department policy required that all deficiencies be
                      reported, regardless of whether approved requirements or
                      interim guidance were violated.

                               Input into the Corrective Action Program

                      Potential conditions in some other tracking systems were
                      not included in the CAP database because of inadequate
                      procedures and software problems. Specifically, 10 of the
                      16 other systems, such as the Document Action Request
                      and Work Order Request Systems, did not instruct
                      employees to enter potential condition reports into the
                      CAP. With regard to the ECP, however, procedures
                      required that conditions also be entered into the CAP, but
                      in many cases, the conditions simply were not entered as
                      required.



________________________________________________________________
Page 6                                            Details of Finding
                      Despite access to a hotline designed to assist with using the
                      software, both managers and employees expressed
                      frustration with the CAP system software and avoided
                      using it to either report or resolve problems. For example,
                      some employees cited problems with finding the condition
                      reports in the system and the numerous levels of reviews
                      needed to resolve the issues. Also, some responsible
                      individuals did not have access to information in the CAP
                      system to take the corrective actions assigned to them.
                      Furthermore, two Department managers told us that
                      because the system was not "user-friendly", they preferred
                      to resolve conditions outside of the CAP system.

                                    Validation of Corrective Actions

                      Bechtel did not always perform effectiveness reviews on
                      closed corrective actions to ensure the reported conditions
                      were corrected. Since early 2005, Bechtel's policy required
                      effectiveness reviews for all closed Level A and selected
                      Level B condition reports. To their credit, management
                      had completed effectiveness reviews for 7 of the 8 Level A
                      condition reports that had been closed. The effectiveness
                      review for the remaining Level A condition report is in
                      progress. However, we found at least 52 Level B condition
                      reports that had been closed since that time, yet
                      management had not performed any effectiveness reviews
                      of the corrective actions taken for these conditions. We
                      also noted that Bechtel sometimes closed corrective actions
                      based on plans to address the problems at some future date;
                      however, Bechtel did not validate that the planned actions
                      were ever completed. For example, we found that Bechtel
                      closed three condition reports – 2 Level C's and 1 Level D
                      – to future planned corrective actions to develop procedures
                      for the Quality Assurance Requirements Document;
                      however, after the condition reports were closed, the
                      procedures were still not developed, nor had Bechtel
                      validated the status of the planned action.

                                           Trending Concerns

                      Although some trending capabilities existed within CAP,
                      particularly for the more significant condition reports,
                      OCRWM and contractor line managers did not adequately
                      trend all deficiencies. Specifically, while OCRWM's
                      procedure requires that all Level A, B, and C condition
                      reports be trended to identify repeat occurrences, generic
                      issues, and vulnerabilities at a low level before significant

________________________________________________________________
Page 7                                            Details of Finding
                      problems resulted, Level D condition reports were not
                      included as part of the trending process since they were
                      considered recommendations or opportunities for
                      improvements. Consequently, managers were not able to
                      review all reported deficiencies to determine if a larger
                      problem existed or if a problem was being reported
                      repeatedly. Furthermore, the ability to trend the timeliness
                      of corrective actions was limited because management
                      frequently revised scheduled completion dates and
                      measured timeliness from the revised dates.

                      All conditions should be trended since some of the major
                      recurring problems, such as those related to the flow down
                      of design and control requirements to technical documents,
                      had been included in Level D condition reports. In a recent
                      review, OCRWM self-identified that managers were not
                      using the trending tools available to them and that
                      managers tended to react to condition reports in isolation
                      rather than conducting trend analyses that could anticipate
                      problems and facilitate a proactive approach to resolving
                      issues. During our audit, management agreed that this is a
                      significant problem and that trending analyses needed
                      improvement. Efforts are now underway to revise its
                      reports and procedures.

                             Complex Actions and Budgetary Constraints

                      On-site managers indicated that complicated corrective
                      action plans and competing priorities for limited budgetary
                      resources, to a limited extent, also impacted OCRWM's
                      ability to implement timely corrective actions. For
                      example, nine major corrective actions, involving the
                      installation of emergency lighting and firewater systems in
                      the tunnels – Level B and Level C conditions, respectively,
                      and the repair to open slots in tunnel walkways – a Level D
                      condition – were not completed as planned because
                      corrective actions were more complex than initially
                      expected. As a result, these actions were placed on hold
                      until a safety analysis could be completed to determine the
                      extent of required corrective actions. These corrective
                      actions were then further delayed due to competing
                      priorities for funds. As of March 2006, six years after the
                      first deficiency was raised, corrective actions to tunnel
                      lighting were starting to take place and other corrective
                      actions were scheduled for completion in 2007.



________________________________________________________________
Page 8                                            Details of Finding
Impact on Yucca      Failure to effectively use the CAP to manage potential
Mountain Project     quality and safety conditions could ultimately delay
                     issuance of the license to begin construction and
                     operation of the repository. Delays in completing
                     construction of the repository could have significant
                     financial consequences since the annual cost of storing
                     and handling Departmental defense waste destined for
                     Yucca Mountain is substantial. Additionally, the
                     government's liability for not beginning to take
                     commercial spent fuel from nuclear utilities could be
                     substantial. Unreported and unresolved quality assurance
                     conditions could also impact the safety and performance
                     of the repository.


RECOMMENDATIONS      We recommend that the Director of OCRWM:

                        1. Ensure managers are held accountable for
                           implementing the policies and procedures of the
                           Corrective Action Program, including reporting all
                           conditions potentially adverse to quality and safety;

                        2. Improve the Corrective Action Program to make it
                           more user-friendly and facilitate broader employee
                           participation;

                        3. Revise procedures of other related systems to
                           require that conditions potentially adverse to quality
                           identified in those systems are also entered into the
                           Corrective Action Program, as required;

                        4. Conduct effectiveness reviews to validate corrective
                           actions, including condition reports closed to future
                           planned corrective actions;

                        5. Improve trending capabilities for management to
                           anticipate and mitigate deficiencies; and,

                        6. Ensure that corrective action plans are based on
                           realistic estimates of the time and budgetary
                           resources required to complete planned actions.


MANAGEMENT           Management concurred with our recommendations and
COMMENTS             developed planned actions to ensure that the Corrective
                     Action Program is effectively implemented.
                     Management has already initiated or plans to, among
                     other things:

________________________________________________________________
Page 9                              Recommendations and Comments
                        •   Increase managers' accountability by integrating
                            new performance measures for organizations to
                            identify deficiencies and respond in a timely
                            manner to planned corrective actions;

                        •   Implement improvements to the Corrective Action
                            Program system based on user recommendations;

                        •   Provide training to all employees on the Corrective
                            Action Program and its requirements to facilitate
                            broader employee participation;

                        •   Review procedures from other related systems for
                            reference to the processing of conditions adverse to
                            quality; and,

                        •   Conduct effectiveness reviews to validate the
                            effectiveness of corrective actions.

                     Management's comments, including its corrective action
                     plan, are included in their entirety in Appendix 3.


AUDITOR              Management's comments and planned actions are
COMMENTS             responsive to our recommendations.




________________________________________________________________
Page 10                                                Comments
Appendix 1

OBJECTIVE             The objective of this audit was to determine whether the
                      Corrective Action Program was achieving its goal of
                      identifying, tracking, and resolving all conditions that
                      could affect the license application process.


SCOPE                 The audit was performed between October 2005 and May
                      2006, at the Office of Repository Development and
                      Bechtel SAIC Company, LLC in Las Vegas, Nevada.
                      The scope was limited to the activities associated with the
                      Corrective Action Program from October 2003 through
                      April 2006.


METHODOLOGY           To accomplish our audit objective, we:

                         •   Obtained and reviewed applicable Department of
                             Energy orders and the Code of Federal Regulations;
                             prior audits, and, contract documents;

                         •   Assessed compliance with the Government
                             Performance and Results Act of 1993;

                         •   Interviewed appropriate program and contract
                             personnel; and,

                         •   Analyzed employee concern files and corrective
                             action program documentation, including: condition
                             reports, corrective action plans, trending reports,
                             and, effectiveness reviews.

                      The audit was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objective. Because our
                      review was limited, it would not necessarily have disclosed
                      all internal control deficiencies that may have existed at the
                      time of our audit. We relied on computer processed data to
                      accomplish our audit objective. We performed limited tests
                      on the Corrective Action Program system data and
                      determined that it could be relied on to achieve the audit
                      objective. OCRWM established performance measures
                      under the Government Performance and Results Act of
                      1993 and passed them down to Bechtel through the


________________________________________________________________
Page 11                            Objective, Scope, and Methodology
Appendix 1 (continued)

                      Corrective Action Program. While we identified
                      deficiencies with the administration of the Corrective
                      Action Program, we found the Department complied with
                      the Government Performance and Results Act of 1993.

                      We discussed the results of the audit with the Office of
                      Civilian Radioactive Waste Management on May 4, 2006.
                      Management waived the exit conference.




________________________________________________________________
Page 12                            Objective, Scope, and Methodology
Appendix 2

                                  PRIOR REPORTS


Office of Inspector General

   •   Quality Assurance Weaknesses in the Review of Yucca Mountain Electronic Mail
       for Relevancy to the Licensing Process (DOE/IG-0708, November 2005). The
       review identified potential quality assurance issues that had not been entered into
       the Corrective Action Program. The Nuclear Regulatory Commission (NRC)
       process for granting a license for the repository required that the Department of
       Energy (Department) publicly disclose on a website all documents, including
       emails, relevant to the process. The inspection found emails among the 10
       million that identified possible conditions and therefore should have been
       reviewed for entry into the Corrective Action Program. As a result, the Office of
       Civilian Radioactive Waste Management (OCRWM) took action to have
       approximately 10 million archived emails reviewed for relevancy to the licensing
       process.

   •   Use of Performance Based Incentives by the Office of Civilian Radioactive Waste
       Management (DOE/IG-0702, September 2005). The audit report identified that
       since 2001, OCRWM paid approximately $4 million in incentive fees, or
       approximately ten-percent of the fees paid, even though Bechtel delivered poor
       quality work and missed deadlines. In administering the contract, OCRWM did
       not establish an adequate quality assurance plan, as required by the Department's
       Acquisition Regulations. Further, OCRWM did not update the quality assurance
       plan when incentive expectations changed nor had it documented its rationale for
       incentive fee payments. The Office of Inspector General recommended that
       OCRWM establish a performance evaluation and management plan with clearly
       defined standards, including acceptable quality levels for incentives and fee
       reductions when performance expectations were not met.

Government Accountability Office

   •   Yucca Mountain – Quality Assurance at DOE's Planned Nuclear Waste
       Repository Needs Increased Management Attention (March 2006, GAO-06-313).
       The Government Accountability Office (GAO) reported that the Department
       continues to face substantial quality assurance problems and other challenges that
       could further delay the license application process. GAO cited ineffective
       Department management tools to address these challenges. GAO recommended
       that the Department reassess their coverage of quality assurance management
       tools to: allow effective monitoring of issues; incorporate a project wide trending
       analyses; establish quality guidelines for trend evaluation reports; develop
       consistent performance indicators; and, focus on the significance of issues.




________________________________________________________________
Page 13                                              Prior Reports
Appendix 2 (continued)

  •   Yucca Mountain – Persistent Quality Assurance Problems Could Delay
      Repository Licensing and Operation (April 2004, GAO-04-460). GAO identified
      lingering quality problems with data, models, and software and continuing
      management weaknesses. The Department developed a corrective action plan in
      2002 to fix recurring problems with the accuracy of such data; however, GAO
      found that the plan lacked objective measurements and timeframes for
      determining success. GAO recommended the Department develop a new
      corrective action plan to ensure that recurring problems were corrected. GAO
      noted that without the Department making improvements in their quality
      assurance program, recurring problems could affect the license application
      process.




________________________________________________________________
Page 14                                              Prior Reports
Appendix 3




________________________________________________________________
Page 15                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 16                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 17                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 18                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 19                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 20                                     Management Comments
                                                             IG Report No. DOE/IG-0736

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
